fan

C'OCKLE

2311 Douglas Street A L ] Brie f . E-Mail Address:
Omaha, Nebraska 68102-1214 ega : re : contact@cocklelegalbriefs.com
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
8

Fax: (402) 342-4850
No. 20-827

UNITED STATES,
Petitioner,
Vv.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN,
A.K.A. ABU ZUBAYDAH, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICI CURIAE OF
THE AMERICAN CIVIL LIBERTIES UNION AND COUNSEL FOR AMMAR AL BALUCHI IN
SUPPORT OF RESPONDENTS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoo!book 12 point for the text
and 10 point for the footnotes, and this brief contains 5332 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of August, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska 1 / Zz. Chi
RENEE J. GOSS: 9. ‘°

Affiant

My Comm. Exp. September 5, 2023

 

 

Notary Public
41281
